j;­          ~~~



      Department of Health and Human Servces
              OFFICE OF

         INSPECTOR GENERAL





       MEDICARE SECONDARY PAYER:
        EFFECTIVENESS OF CURRENT
               PROCEDURES





                V1CE'


                        Richard P. Kusserow
                        INSPECfOR GENERA

                             AUGUST 1
                       OFFICE OF INSPECfOR GENRA


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452
as amended , is to protect the integrity of the Department of Health and Human Servces
(HHS) programs as well as the health and welfare of beneficiaries served by those programs.
This statutory mission is carried out through a nationwide network of audits , investigations
and inspections conducted by three OIG operating components: the Offce of Audit
Servces , the Offce of Investigations , and the Office of Evaluation and Inspetions. The
OIG also informs the Secretary of HHS of program , and management problems , and
recommends courses to correct them.

                           OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides allliuditing servce for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their    respective   responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and effciency throughout the Department.

                           OFFICE OF          INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to crinal convictions
administrative sanctions , or civil money penalties. The 01 also oversee State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the     Medicaid
program.

                OFFICE OF EVALUATION AN INSPECfONS
     OIG' s   Offce of Evaluation and    Inspections (OEI) conducts short- term management and
prc0gram evaluations (called inspections) that focus on isues of concern to the Department
the Congress , and the public. The findings and recmmendations contained in these
inspection reports generate rapid , accurate , and up-to-date information on the effciency,
vulnerabilty, and effectiveness of departmental programs.

Perr Seaton ,  Team Leader                              Thomas Noplock , Headquarters
Julie L. Quirin , Project Leader                        W. Mark Krushat, Headquarters
Hugh Owens

Doris Philips
0: _.




 Deparment of Health and Human Services
                       OFFICE
         INSPECTOR GENERAL





        MEDICARE SECONDARY PAYER:

        EFFECTIVENESS OF CURRENT

               PROCEDURES





                  f.P.VICE$'



                               Richard P. Kusserow
                               INSPECTOR GENERAL
            '0
                 + OEI-
                 1t\'d:W
                                     07-90- 00761
    ---.     ....- --. -            .._-=---..




                                EXECUTIVE SUMMARY

PURPOSE

To evaluate Medicar contractor procedures for identifying Medicar beneficiares who have
insurance coverage that is primar to Medicar.


BACKGROUND

Unti 1980, Medicar was                           the primar payer of health car      costs   for Medcare beneficiares
except when the beneficiar                         was covere by a worker s compensation          progr or the Veteran
Admnistration. Congress  became concerned about significant increases in the cost of the
Medicare progr. As a result, between 1980 and 1986 Congress passed a series of statutory
provisions requirng certn private insurers to pay medical clais before Medicar (see
Appendi A).

Recent Congrssional hearngs and meda attention have brought the Medicare Seconda Payer
(MSP) issue to the forefront Despite curnt                              mechanisms   to identify beneficiares who have
priar insurance coverage, may primar payers reman unidentified. The OIG has estimated,
based on a radom sample of Medicar beneficiares, that Medicare lost over $600 milion in FY
1988 due to unidentied                       pri
                                payment soures. The curent HCFA actuar estiate of
Medicare progr losses, due to the contrctors ' faiure to identify        payment sources and   priar
recover inappropriate Medicare payments, has incrased to $1.3 billon for FY 1991.


METHODOLOGY

We solicited medical insurance information from a random sample of 4, 371 beneficiares. We
obtained responses from 3, 185 beneficiares. This represents an overall response rate of 72.
percent We analyzed the verified cases with unidentified primar payers to determne the
reasons why the curnt system was unsuccessful in identifying the primar payment source.


FINDINGS

Medicare lost at least $120.                      0 million in   1988   because contractors are not coordinating with
their private insurance operations.

                  $585. million because current MSP procedures failed to detect all cases
Medicare lost over 


when a beneficiary is covered by a working spouse s EGHP.


            1988.
Intermediaries and carrers lack coordination, resulting in a 


during
                                                                                         $23. million loss to Medicare
Contractors lack the internal coordination and systems information needed to identify all MSP
situations.


RECOMMENDATIONS

The HCFA should propose legislaton to require Medicare contractors to match their health
insurance daa with Medicare files.

The HCFA should revise all Medicare claims forms to require spousal insurance information
before the claim is   pai
The HCFA should continue to refine and improve the MSP component of the Common
Working File (CWF).


COMMNTS
The HCFA generally concur with the recommendations presented in this report. With regard to
the recommendation that HCFA propose legislation requirng Medicare contractors to match
their health insurce data with Medicar fies, the HCFA has proposed legislation to requir
such matches in the past, but the Congress has not yet enacted it. In fact, section 6202 of OBRA
1989 prohibits the Secreta from requirng such matches. The HCFA indicates it wil review
the legislative recommendations and tae appropriate action as pan of the Deparent
legislative development (A- 19) process. The OIG contiues to believe this is an important step
in determning the primar payer for many beneficiares.

This fmal report includes revisions as suggested by HCFA in its "Technical Comments " section
of their comments on the draft report The HCFA' s verbati comments can be found in
Appendi C.
.-.,-- . -----                                            .................... .............................. .................... ...........
                                                       ............................ ................




                                  TABLE OF CONTENTS

         EXECUTIVE SUMMARY

         INRODUCTION..................................................................................................... .


                 Purose................................................................................................................ .


                 Background......................................................................................................... .

                 Methodology........................................................................................................ 3

         FIN IN GS .................................................................................................................. 5

                 Medicare lost at least $120. 0               milion in 1988 because contractors ar not
                 coordiatig with their private insurance operations. .........................................


                 Medicare lost over $585.3 mion because curnt MSP procedurs
                 faied to detect al cases when a beneficiar is covered by a
                 workig spouse s EGII.                               .......................................... 6

                 Intermediares and carers do not                      coordinate their efforts,
                 resultig in a $23. 7          millon loss to Medicar durg 1988...................................


                 Contractors lack the internal coordiation , systems, and informtion

                 needed to identify all MSP situations...................................................................


          RECO MMEND A TI 0 NS ........................................................................................... 8


          AGENCY CO MMENTS ........ 


          APPENDIX A ........................................................ .......... .................................... .. A­


          APPENDIX B ........................................................................................................ .


          APPENDIX C ................................................................ ......................................... C­

                             INTRODUCTION

PURPOSE

To evaluate Medicar contractor procedures for identiying     Medicar beneficiares who have
insurance coverage that is priar to Medicar.


BACKGROUND

This inspection is a par of an initiative to assess the effectiveness of procedurs used to identify
Medicare Seconda Payer (MSP) situations. The fidings and recommendations presented in
this repon suppon the Secrta s objective to enhance cost effectiveness of Medicar
reimbursement by ensurng that Medicare reimbursement is secondar to other insurce.

History of MSP Provisions

Medicare helps pay medical costs for approximately 28 millon people aged 65 and older and
approxiately 3 millon disabled people. Medicare Par A covers inpatient hospita services,
home health services, and other institution- based servces. Physician, outpatient hospita, and
varous other health services are covered by Medcar Par

The Health Car Financing Admnistration (HCFA) is responsible for ensurng compliance with
Medicare legislation and regulations. Prvate insurce companies contrct with HCFA to
process and pay Medicar claims. These contrctors are known as fiscal intermediares (Par A)
and caners (par B).



Until 1980,   Medicar was the   priar payer of health car costs for Medicare beneficiares
except when the beneficiar was covered by a worker s compensation progr or the Veteran
Admnistration. Congress became concerned about significant increases in the cost of the
Medicare progr. As a result, between 1980 and 1986 Congress passed a series of statutory
provisions requirng  certprivate insurers to pay medical claims before Medicar (See
Appendi A).

These provisions requir private insurers to pay medical claims primar to Medicar if the
beneficiar has other health insurce coverage by an employer group health plan (EGHP), a
disabled beneficiar s large group health plan (LGHP), a spouse s EGHP, or automobile,
no- fault, or liabilty insurce. If the prima plan does not pay for al covered services,
Medicare may pay secondar benefits for Medicare covered services.

Implementation of MSP Provisions

These provisions created a need for a system to coordinate private insurce benefits with
Medicare. Curently, Medicar contractors use information from both internal and external
--------


           sources to detennne the prima payer for clais submined for reimbursement. In order for the
           system to be effective, the contractors must have insurance information for each beneficiar that
           is accurte, complete, and CUIent Without this informtion, contrctors wil continue to pay
           claims inappropriately.

           To insur the contrctor has complete   and accurte information ,         the HCFA requires contractors
           to identi primar payment     soures. When a Medicare claim is submitted, the contrctor
           searches MSP history fies for health insurance coverage that is provided by another insurer. The
           most widely used contrctor procedurs for identifyig MSP situations include


                 developing leads from HCF A' s " Y   -trailer   " codes;

                 screening informtion   included on   the clai     form;


                 queryng data in the Common Working File (CW;

                 developing the fIrst claim fIed by or on behalf of a beneficiar;        and


                 reviewing al clais contaning medical     diagnosis codes indicating trauma-to identify
                 injures related to automobile, or other trumatic injur cases, including work-related
                 accidents.

           These provisions created new functions for Medicar contrctors. The contrctors ar required
           to screen, identiy, and veriy clais for other insurce involvement. In addtion, contractors
           are requied to make post-payment recoveries when Medicar has paid improperly. The HCFA
           monitors the contrctors ' efforts to identi and recover MSP payments by establishing an MSP
           savings goal for each contrctor. The HCFA annualy evaluates each contrctor s performance
           using the Contrctor Performance Evaluation Plan (CPEP) standads and established goals. The
           contrctor must achieve a savings figure of at least 95% of their MSP savings goal to pass the
           MSP element of the CPEP review.

           Medicare contrctors were budgeted approximately $70              millon for admistration of the
           Medicare Secondar Payer provisions durng fiscal year(F) 1989. They reported savings of
                    billon in FY 1989. Accordig to information obtaied from HCFA the funding for
           over $2. 2
           MSP activities in FY 1990 was reduced to $56 milion.

           Contractors ar not the only entities involved in identification of MSP activities. Hospitals are
           required to ask for all insurance coverage upon admttace. Personnel in physician s offices
           and/or their biling agents are also required to collect and record complete insurce coverage
           information. CUIently, when a patient has insurce coverage from another source, the provider
           is requird to initially submit the claim to the primar insurr rather than Medicar. If the
           priar    insurer does not reimburse for the tota amount of the Medicar alowable, Medicar
           would then pay the remaiing covered services as the secondar payer.
 .. ..-.. - _a_---.
   .-. --.....   '...._




The HCFA has conducted extensive educational programs for the beneficiar and provider
communities and private health insurce companies concerning the MSP provisions and clais
f1ing procedurs.

Addtional Savings   Possible

Recent Congrssional hearngs and media  attention have brought the MSP issue to the forefront.
Despite curnt mechanisms  to identiy beneficiaes  who have prima insurance coverage,
many prima payers remain unidentied. Studies by the Offce of Inspector Genera (OIG), the
General Accounting Offce (GAO) and HCFA have confmned that additional savings and
recoveries ar possible.

The OIG has estimated, based on a radom sample of Medicar beneficiares, that Medicare lost
over $600 miion in FY 1988 due to unidentified priar payment sources. Accordig to the
HCFA actuar, the Medicar program lost approximately $900 milion in FY 1990. The curnt
HCFAactuar estiate of Medcar program losses due to the contrctors ' failure to identify
priar payment sources and recover inappropriate Medicare payments, is $1.3 bilion for
FY 1991.


 METHODOLOGY

 We selected a simple random sample from the population of al beneficiares who received
 services durng 1987. The Offce of Inspector Genera, Offce of Evaluation and Inspections
 maintans a one percent sample of al beneficiares receiving servces under Par B. This Bample
 is a subset of the Par B Medicar Annual Data (BMAD) IV five percent beneficiar sample f1e
 maintaned by HCFA.

 A subsample of these beneficiares, using sequential sampling, resulted in 6, 777 HICNs
 representing beneficiares with Medicare claims. We matched these records with the Social
 Securty Admnistration s (SSA) Master Beneficiar Record (MBR) to obtain demogrphic data,
 includig curent address, and determe the curnt status of each beneficiar identied. The
 following table presents the results.

                    Results of Medicare BMAD IV Match with SSA MBR.

                  Orgial Number Selected                                   777
                    Raioad Retiment Board       Beneficiares               138
                    Status Indicated as Dead                               070
                    Non- Matching Numbers
                    Final Number of Beneficiares                           371

  We deleted Railroad Board retiees from the sample (138 beneficiares) because the Social
. Securty Admnistration (SSA) does not maitain their data. We also deleted the 1, 070
  beneficiares indicated by SSA as deceased because we were not willng to identify or mail
  sureys in attempt to obtan proxy respondents. The 1, 198 HICNs thai did not match with SSA'
MBR represent a problem encountere with the Beneficiar Identification Code (BIC). We were
unable to obtan any information on these individuals though the diect match. Therefore, we
deleted these individuals frm the surey.

We solicited information from the remaiing 4 371 beneficiares. We obtaied       responses from
 185 beneficiares. This represents an overall response rate of 72. 9 percent.


We used the BMA one percent sample and the Medicare Automated Data Retreval           System
(MARS) to gather demogrphic and utiizatiop.      informtion. These systems ar also
maitaed by HCFA. The MARS provided informtion             on tota   Par A and Par B
expenditus on behalf of each beneficiar.

We asked questions concerning the respondent s supplementa medical coverage. We examned
al inormation for indications of priar payment sources. Where a positive response was
noted, OIG sta developed the case to gather more specific information and verify the
inormation provided.



We conducted telephone intervews with the beneficiares to verify the information they
provided and to collect names and addesses of employers and insurance companes. Additional
contacts with these employers and with representatives frm the involved insurce company
were made to furer verify Medicar s status as seconda payer. This process enabled us to
determe whether Medicare paid appropriately as seconda payer. Medicare contractors
provided payment histories and documentation to determne if Medicar payments shown were
situations where the contractor paid the clai cOlTectly as the seconda payer.

We analyzed the veried cases with unidentied    priar payers to determe the reasons why
the curnt system was unsuccessfu in identiing the primar payment source. This analysis
was completed by interviewing Medicare contrctor sta, private insurce companies, and
employers. In addition , we requested documentation frm these entities. This documentation
included the Medicare billg form, the explanation of benefits from the third par payer
payment information/istory printout on the claim(s) in question , and any other documentation
supportg development     of the   clai(s).
                                                FINDINGS

  The following fmdigs are based on an analysis of the 34 confIrmed overpayment cases. Each
  case may be included in one or more of the analysis categories. These categories are not
  mutualy exclusive.

  Medicare lost at least $120.    0 milion in         1988   because contractors are not coordinating with
  their private insurance operatons.

  All Medicare contrctors have a fiducia responsibilty to the Federa Government to assur that
  only appropriate Medicare payments ar made. The CUIent argement crates a potential

  conflct of interest between the contractors ' private insurance business and their Medicare

  operations.


  Insurce companies curntly contrcting with HCFA to process and pay Medicare claims also
  conduct private health insurce business. Often the contrctor s private business operation
  insures beneficiares who ar afected by the MSP provisions. Records for private insurance
  operations and Medicare business operations are maintaned separtely.

  The majority of the Medicare contractors ar owned by the Blue CrosslBlue Shield corporation.
  Accordig to the Blue Cross of America, 87 percent of contractors ' private business comes from
  EGHP coverage for companies offerig group health insurce to their employees.

  We identified primar insurce coverage on 34 cases. These cases totaed an actual loss to the
                                                                                            1 in
  Medicare progr of $60, 502. This projects to an estited annual loss of over $637 millon
  1988. Furer analysis of the 34 overpayment cases shows that Medicare paid as the primar
  payer in eight (23. 5%) of these cases when the beneficiar had primar insurace coverage
  though an EGHP admnistered by the contractors ' private business operations. These eight
  cases account for $11,420 or approximately 18. 8% of the tota overpayment. When projected to
  the universe of Medicare beneficiares, Medicar lost over $120. 2 millon due to lack of
  coordiation between Medicar contractors and their private business. CUIent procedures were
  not effective in identifying these cases for the contrctor.

   Of the eight claims that should have been paid by the contrctors ' private business operations,
   source claim information was readily available on the. In each of these cases, the claim form
   indicated that a prima payer other than Medicare was available. The contrctor did not provide
   source claim information for the remaiing five claims because the claims were submitted
   electronically.




          1 For
               detas of this estiate   see " Extent   of Unrecovered Medca   Seconda Payer Funds"
- OEI-07- 9Q- 00760.
Medicare lost over         millon because current MSP procedures failed to detect all cases

                         $585.3

 when a beneficiary is covered by a working spouse s EGHP.


Medicare is the seconda payer when a beneficiar is covered by a working spouses s EGHP.
These situations often are the most dicult for contrctors to identify. This is ilustrted by our
of review the 34 overpayment cases identic.il in the beneficiar surey. Twenty- five of the 34
overpayment cases (73.5 percent) had unidentified primar insurce coverage though the
EGHP of a working spouse. Of the $60, 502 identified overpayments, $54 294 resulted from
unidentied spousal insurce coverage. This accounted for $583.3 miion (90 percent) of the
anual projected loss to the Medicare progr for 1988.
Intermediares and carrers do not coordinate their efforts, resulting in a      $23. million loss to
Medicare during 1988.

We found four of the 34 (11.8%) overpayment cases where MSP information was not exchanged
between contractors or the informtion exchanged was inaccurate. These four cases total $2 257.
This amount projects to o.ver $23. 7 millon of the total overpayment projection.

Intermediares and       carers frequently receive claims filed on behal of the same beneficiar.

  Curent procedures should provide both entities with updated and accurate MSP information

. concerng the beneficiar                    mployment status. The Regional Data Exchange

                                  s insurance and

  System (RDES) has been the primar mechanism for exchange of MSP information between
  contractors. Al contractors were requird to do quarerly updates to this system. These updates
  include al newly identied MSP cases.

 The RDES is no longer used in this capacity. The Common Working File (CWF) has replaced
 RDES as the         priar
                     mechanism for exchangig MSP information between contrctors.

 Contractors lack the internal coordination, systems, and informaton        needed   to identify all
MSP situatons.

 Eleven of the 34 overpayment cases were paid inappropriately due to genera deficiencies and/or
 errors by the contractors. According to existig procedures, Medicare claims should be
 developed and/or denied when the contrctor has information indicatig that a private insurance
 company may be the primar payer. Our analysis of the identified claims, established several
 areas that resulted in inappropriate Medicare payments. The following is a listing of specific
 causes for these inappropriate Medicar payments.

          The contrctor paid the claim despite a development letter on fie at the contrctor that
          indicated EGHP coverage.

          The contractor did not promptly recover an overpayment when information confirming the
          prima payer was available.
The contrctor paid the claim despite infonnation in the contractor s computer system that
the beneficiar s spouse was working.

The contrctor initiated recovery for a beneficiar after it received infonnation that a
priar  payment source existed. However , the contrctor did not mae recoveries on all
previously adjudicated claims.



The contrctor received infonnation frm RDES that indicated there \yas a primar
payment source. However, the contrctor did not initiate recovery on the previously paid
clais.
The contrctor paid the claim despite infonnation in the contractor s computer system that
indicated a primar insurce source.

The hospital received payment from Medicare and the private insurce source which
exceeded its charges. The hospita notied the contractor of this, but the contractor did not
intiate recovery of the overpayment.
                        RECOMMENDATIONS

The fIrst two recommendations have been presented in a previous OIG Management Advisory
Repon (MAR) entitled " Medicar Seconda Payer: Unrcovered Funds " (OEI- 07- 90-00764).
They are also included in this repon because they are supponed by the fmdings of this
inspection. We have indicated the curnt status on those recommendations where HCFA has
previously commented.

The HCFA should propose legislaton to require Medicare contractors to match their health
insurance daa with Mediare files.

We recognize that Section 6202(d) of OBRA 1989 prohibits the Secrtar from requirg
Medicare contrctors to match their records with their private business operations. However, we
found a substatial number of unidentified MSP cases that would have been identied if this
type of match had been requird.

The potential for conflct of interest inherent in the corporate strctue of the Medicar
contractors could be eliminated by requirg regular matches between the contrctor s private
insurance fles and their Medicar fies. This matchig activity would result in more accurate
MSP data for the contractor. The contrctor would accurtely identify many more MSP
situations in the pre- payment phase of processing the Medicar clai alowing contractors to
avoid "pay and chase " situations.


The DIG recommends that HCFA pursue a legislative proposal that would requir Medicare
contrctors to match their records with the private health insurce data. This proposal should
furer require Medicare contrctors to review their private insurance files to identify and repon
potential MSP situations.

The HCFA has disagreed with this recommendation in their comments on the MAR entitled
 Medicare Seconda Payer: Unrecovered Funds, " because of the provisions of Section 6202 of
OBRA of 1989 that prohibit the Secreta from requirng such matches.

The HCFA should revise all Medicare claim forms to require spousal insurance information
before the claim is paid.

As of June 20, 1991 ,the HCFA 1500 claim form submitted by or on behalf of the beneficiar
does not ask for complete information concerning spousal employment or insurce coverage.
This mechanism would be a useful way to identiy a substantial number of cases where the
benefIciar is covered by their spouse s EGRP.
. ..




       We suggest that the followig questions be added as par   of the claim forms:


                   Are you covered by medical insurance though    your employer?


                   Are you covered by medical insurance through your spouses employer?

       The HCFA has concur with this recommendation in their comments on the MAR entitled
        Medicare Seconda Payer: Unrecovere Funds" and will inform the Uniform Claim Form
       Task Force (this task force makes Medicar clai form changes) of its concurnce. The OIG
       wil follow though with HCFA on the changes being made to the clai form.


       The HCF A should contnue to refine and improve the MSP component of the Common
       Working File (CWF).

       As of December 1990, al contractors who process and pay Medicar clais ar using CWE
       Ths system is designed to simpliy and improve Medicare claims processing. The
       establishes a prepayment review and payment authorization proess that, when working
       properly, wil signicantly reduce claims payment errors and provider overpayments. It wil
       provide the most curnt and accurate Medicar entitlement and eligibilty data on beneficiares.
       The CWF should also improve MSP claims processing and exchange of informtion between
       contractors.

       The MSP component of the CW was established with data from the Regional Data Exchange
       System (RDES). Contractor representatives have indicated that this system is not reliable
       because of incorrect and inconsistent data. Using the RDES to establish this porton of the CWF
       trsferrd the incorrect and inconsistent data to the CWF. The CW wil not improve MSP
       identication and recovery efforts unless al Medicar contractors ar receiving reliable and
       consistent MSP informtion. The HCFA should work to assur that the problems with the CWF
       are corrcted.

       Also, the system has crated duplicate auxiliar records for MSP information. One record is a
       slight deviation. This causes every clai to reject as a potential MSP situation. The contrctors
       have been holding these claims. Obviously, this has created a large backlog. In addition , many
       auxilar records have incorrct effective dates. Only the contrctor that originally set up the
       record can change the effective date. This causes confusion when one contractor fmds an error
       but is unable to corrct it until they discover which contrctor originally set up the MSP fie.
'::"_      '- - ' .   --   .--. ' -      ------.
                                      - --                                    "".




                           AGENCY COMMENTS

  The HCFA generally agred with the recommendations presented in the     drt report. The fit
  recommendation has been presented to HCFA in previous OIG reports. The HCFA has indicated
  that " appropriate action wil be taen as par of the Deparent s legislative development (A- 19)
  process. " The OIG continues to believe this is an importt step in determning the primar
  payer for may beneficiares.

  Our second recommendation suggests that Medicar revise all clai form to requir spousal
  health insurance information. The HCFA indicated that the HCFA 1500 has recently been
  revised. However, as of June 20, 1991 , we were advised that many providers ar not using ths
  revised form. They continue to use a version of the HCFA 1500 that does not request spousal
  health insurance inormation. The HCFA also indicates that they are considerig other
  modcations but " it wil be a tie consumig proess. " We contiue to believe that the HCFA
  1500 clam form should be revised to request complete employment and health insurce
  information for the beneficiar and his/her spouse. The HCFA should work to expedite this
  process.

   The HCFA concurs with the recommendation to refine and improve the MSP component of the
   Common Working File (CWF). As HCFA requested, we have modfied the report to detal the
   specific problems that we have discovered with the CWF.

   This fmal report includes revisions as suggested by HCFA in its "Technical Comments " section
   of their comments on the draft report The HCFA's verbati comments can be found in
   Appendi C.
                                                                     ~~~~~ _..




                           APPENDIX A

                 MEDICARE SECONDARY PAYER LEGISLATION

TITLE OF        PUBLIC     ENACTMENT   EFFECTIV
LAW             LAW        DATE        DATE         DESCRIPTION

Omnbus          96- 499    12- 05-     12- 05-      ORA made Medicar
Reconcilation                                       the seconda payer to
Act of 1980                                         automobile medical,
(ORA)                                               no fault or any
                                                    liabilty insurance.



Omnbus Budget   97-        08- 13-     10- 01-      OBRA made Medicare
Reconcilation                                       seconda payer for
Act of 1981                                         end-stage renal disease
(OBRA)                                              for up to 12 months
                                                    following entitlement
                                                    if the person is
                                                    eligible for medical
                                                    insurance under an
                                                    EGRP.

Tax Equity      97 - 248   09- 03-     01- 01-      TEFR made Medicare
and Fiscal                                          benefits seconda
Responsibilty                                       if the employee or
Act of 1982                                         spouse is age 65
(TEFR)                                              though 69 covered
                                                    by an EGRP and the
                                                    employer has at
                                                    least 20 employees.

Deficit         98- 369    07- 18-     01- 01-      DEFR broadened the
Reduction Act                                       definition of
of 1984                                             working spouse by
(DEFR)                                              including spouses
                                                    age 65- 69 of

                                                    employed i
                                                    under age 65, thereby
                                                    removing the lower
                                                    age limt.

                 MEDICARE SECONDARY PAYER LEGISLATION


Consolidated    98- 272    04-06­      05-01­        COBRA fuer
Omnbus Budget                                        broadened the
Reconcilation                                        defmition of
Act of 1985                                          working aged by
(COBRA)                                              removing the
                                                     limitation of age
                                                     70 and older.

Omnbus          99- 509    10- 21­     01-01­        OBRA made Medicare
Budget                                               seconda for people
Reconcilation                                        under 65 who have
Act of 1986                                          Medicare because of
(OBRA)                                               disabilty (other than
                                                     kidney failur) and
                                                     who ar covered under
                                                     a LGHP as an
                                                     employee, employer
                                                     self-employed person
                                                     business associate, or
                                                     famy member.

Omnbus.         101- 239   12- 19­     12- 19­       OBRA provided a two
Budget                                               year period for matching
Reconcilation                                        IRS tax records to
Act of 1989                                          records of the Social
(OBRA)                                               Securty Admistration
                                                     and the Health Care
                                                     Financing Admistration
                                                     to identify working
                                                     beneficiares and
                                                     their spouses.
                               APPENDIX
                           PREVIOUSLY PUBLISHED REPORTS

       Prority Audit Memoradum - Su.1"::y of the Tax Equity and Fiscal Responsibilty Act of
       1982 - March 7, 1984, Contrl Number: ACN- 03-4200

       Medicare Seconda Payer Provision End- Stage Renal Disease - Progr Inspection
       Report - August 24, 1984, Control Number: 1- 07- 4001­

       Medcare Seconda Payer Provision End- Stage Renal Disease - South Dakota-
       November 20, 1984 , Contrl Number: 1-08- 400­

       Medicare Seconda Payer Provision End- Stage Renal Disease - Colorado-

       December 4 , 1984 , Contrl Number: 1- 08- 4001­


       Medicare Seconda Payer Provision End- Stage Renal Disease - Progr Inspection
       Report - April 3, 1985, Control Number: 1-07/08-4002­

       Medicare Seconda Payer Provision Automobile Medical and No-Fault Insurance-
       Nort Dakota - May 1, 1985, Inspection Contrl Number: 03- 08- 5001­

       Prgr Inspection of Medcar as a Seconda Payment Source for Beneficiares with
       End- Stage Renal Disease in the State of Orgon - May 10, 1985, Inspection Control
       Number: 3- 10-4008­

       Medicare as Seconda Payer for Medical Servces Related to Automobile Accidents in
       Massachusetts - June 1985, Contrl Number: 1- 01-4105­

       Medicare as a Seconda Payer for Medical Servces Related to Automobile Accidents in
       Massachusetts - Boston - June 1985, Control Number: 1- 01- 4105­

10.	   Report by the Comptroller Genera of the United States. The Congrss Should Consider
       Amending the Medicare Seconda Payer Provisions to Include Disabilty Beneficiares ­
       September 30,   1985, Control Number: GAOIH- 85- 102

11.	   Medicare Seconda Payer Provision Automobile Liabilty and Medical Insurce - State
       of Missour - Program Inspection Report - December 1985, Control Number: 3-07- 5001­

12.	   Medicare Seconda Payer Provision Automobile Medical and No-Fault Insurance - State
       of Colorado - Program Inspection Report - December 1985, Control Number:
         08- 5002­
_._          ---_..	----
                       ..._   - ----. --- ------ -   - _-_0_
                                                               - --




 13.	   Medcare Seconda Payer Provision Credit Balances in Medicar Beneficiar Hospita
        Accounts, Control Number: OPI- 85- 070- 040

 14.	   Medicare Seconda Payer Prvision Workig Aged in Missour - July 1986, Control
        Number P- 07- 86-0079

 15.	   Medcare Seconda Payer Provision Workig Aged in Colorado - July 1986, Control
        Number: P- 07- 86- 0071

 16.	   OIG Audit Report - Medcare Overpayments for Services Provided to Beneficiares with
        End- Stage Renal Disease - April 28, 1987, Control Number: A- 10- 86- 62003

 17.	   OIG Audit Report - Retiees of Exempt State and Loal Governents Could Cost
        Medicare $12. 8 Bilion over the Next 5 Year - September 10, 1987, Control Number:
        CIN A- 09- 86- 62050

 18.	    Amending the Medicar Seconda Payer Prvision for ESRD Beneficiares Could Save
         the Medcare Progr $3 Billon Over the Next 5 Years - December 1, 1987, Control
        . Number: CIN- 10- 86- 62016

 19.	   Medicare as a Seconda Payment Soure - End- Stage Renal Disease - Januar 1988,
        Control Number: OAI- 07- 86-          002
 20.	   Medicare as a Seconda Payment Soure - Januar 1988, Control Number:
        OAI- 07- 86- 0017

 21.	   Medicare as a Seconda Payment Soure: Medicar Beneficiares Covered By Employer
        Group Health Plans - Februar 1988, Control Number: OAI- 07- 86- 0091

 22.	   Nationwide Review of Medicare as Seconda Payer for the Period September 1 , 1983
        though November 30, 1985, Control Number: CIN A- 10- 86- 62005

 23.	   Medicare: Incentives Needed to Assur Prvate Insurers Pay Before Medicare-
         November 1988, Control Number: GAOIH- 89- 191

 24.	    Management Advisory Report: Medicar as Seconda Payer - A Restitution Proposal,
         Control Number: AO- 12- 89-         002
 25.	    Management Advisory Report: More Complete Employer Group Health Plan Infonntion
         is Needed to Admister the Medicar Seconda Payer Progr, Control Number:
            09- 89- 001oo

 26.	    Draft Management Advisory Report: MSP Survey - Contrctors    Questionnaie,
         Control Number: A- 09- 89- 00151
                                     --_..- -. -




27.   Management Advisory Report: Medicare Seconda Payer: Unrcovered Funds
      (OEI - 07 90-(9764)
           APPENDIX 

HEALTH CAR FINANCING ADMINISTRATION COMMENTS





                     C­
                                      &.                        . - ...

                                                                              Health Care
          DEPARTMENT OF HEALTH             HUMAN SERVlie                      Financing Administration




                                                                              Memorandum
            JU -      1991
Date

          Gail R. Wilensky, Ph. D.
From
     Administrator

Subject
          OIG Draft Report: "Medicare Secondary Payer (MSP): Effectveness          of Current

          Procedures " (OEI- 07-90- 00761)

          Inpector General

          Offce of the Secretary

             We have reviewed the C1lJove referenced draft report evaluating the etIecnven
          of current procedures to identify Medicare beneticiaries who have insurance
          coverage that is primary to Medicare. OIG found that:

                     Medicare contractors are not coordinating with their   private insurance

                     operations when the private insurance side of the corporation is the
                     primary payer.

                     Beneficiaries who are covered by a working spouse s employer group
                     health plan are least likely to be identified for MSP purposes.

                     Medicare contractors lack the internal coordination and systems
                     information needed to identify all MSP situations.

                     Medicare intermediaries and carriers fail to exchange accurate MSP data.
                                                                                                cost
              Based on these findings, OIG makes three recommendations to enhance the
          effectiveness of Medicare reimbursement by ensuring that Medicare reimbursement
          is secondary to other insurance. HCF A concurs with the two management
          recommendations. OIG' s legislative recommendation wil be reviewed and
           appropriate action taken as part of the Department s legislative development
           (A- 19) process.

              Attached are our comments on OIG' s specific recommendations. Thank you for
           the opportunity to   comment on this draft report. Please advise us whether you
           agree with our    position on the report s recommendations at your earliest
           convenience.


           Attachment
                                                                     , .




              Comments of the Health Care Financing Administration
                            Draft Report: Medicare Secondary
                  Paver: Effectiveness of Current Procedures
                                       07- 90- 0076U


OIG recommends three actions for improving the effectiveness of contractor MSP
identification procedures. Two of these have previously been identified by OIG and
addressed by HCFA. Following are comments on each of the recommendations
and some technical comments on the draft repone

orG Recommendation
    HCF A should propose legislation to require Medicare contractors to match
    their health insurance data with Medicare fies.

HCFA ResDonse

HCF A wm review the legislative recommendation and appropriate action wil         be


taken as pan of the Department s legislative development (A- 19) process.


 In the past, HCF A has proposed legislation to require such matches, but   the

 Congress has nOt yet emlcted such legislation. In fact, as GIG pointed out

 secticY 6202 of OBRA 1989 prohibits the Secretary from requiring Medicare

 contractors to match their private insurance data with Medicare data. There are.

 however, various other HCFA activities and legislative proposals for obtaining

 information on primary coverage of Medicare beneficiaries.


 OIG Recommendation

    HCF A should revise all Medicare claim   forms to require spousal information
    before the claim is paid.

 HCFA ResDonse

. The basic Medicare claim form, HCFA 1500, has recently been revised to request
  information about spousal insurance coverage, and about any coverage beneficiaries
  may have through employment. We are also considering recommending additional
  revisions to the HCF A 1500 to require more information on primary insurance and
  spousal eligibilty, but it wiI be a time consuming process. Additional changes must
  be cleared with the appropriate work groups and multiple users, and approved by
  the Offce of Management and Budget under the Paperwork Reduction Act. In the
  interim , we plan to reemphasize to physicians and suppliers who prepare this form,
  their responsibilty for coHecting information about primary insurers.
       ___- - - - - - -


I ­





                          Page 2




                          DIG Recommendation

                              HCF A should continue to refine and improve the MSP component of the

                              Common WC'!'king File - (CW).


                          HCF A Response


                          We agree with DIG'    s recommendation. HCFA expected, the data ..intially
                                                                      As


                          loaded into the CWF contained some inconsistencies. However, the information
                          obtained from the IRSISSAlCF A data match project will be loaded into the CWF
                          andwm take precedence                         We are also pursuing data match
                                                        over conflcting data.
                          projects with the Department of Labor s Black Lung Program, the Depanment of
                          Veterans Afairs and     many State agencies to secure better MSP data.

                          DIG' s draft report does not provide details concerning the specific problems with
                          CW data noted by Medicare contractors. This information would be helpful in
                          determining the particular refinements and improvements that may be necessar.
                          We therefore request that in the final report, DIG provide a further descriptitm and
                          analysis of the CWF system problems that its study revealed.

                           Technical Comments

                           On page 1, last paragraph, third line , the text should read " a disabled beneficiary

                           LGHP" instead of " a disabled beneficiary s EGHP.


                           The last sentence of the last paragraph on page 1 should be r vised to read: "
                           the primary plan does not pay for al1 covered services, Medicare may pay secondary
                           benefits for Medicare covered services.

                           On page 2, the last bullet point in the middle of the page should be revied to
                           read: " reviewing all claims containing medical diagnosis codes indicating trauma-to
                            identify injuries related to automobile, or other traumatic injury caes , including
                          . work-related !ccidents.

                           On page 12, the first item in the right column       should be revised to read: " OBRA
                           1986 made Medicare secondary for people under 65 who have Medicare because of
                           disabilty (other than kidney faiJure) and who are covered under a LGHP as an
                           employee , employer, self-employed person, business associate, or family member.
